E-Mail Address:
briefs@wilsonepes.com

775 H Street, N.E.
Washington, D.C. 20002

Web Site:
www .wilsonepes.com

Tel (202) 789-0096
Fax (202) 842-4896

No. 20A90
AGUDATH ISRAEL OF AMERICA, AGUDATH ISRAEL OF
KEW GARDEN HILLS, AGUDATH ISRAEL OF MADISON,
RABBI YISROEL REISMAN, AND STEVEN SAPHIRSTEIN,

Applicants,

v.
ANDREW M. CUOMO, IN HIS OFFICIAL CAPACITY AS
GOVERNOR OF NEW YORK,
Respondent.
AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that on November 19, 2020, three (3) copies of the MOTION FOR LEAVE
TO FILE BRIEF AS AMICI CURIAE AND BRIEF OF THE AMERICAN MEDICAL
ASSOCIATION AND THE MEDICAL SOCIETY OF THE STATE OF NEW YORK AS AMICI
CURIAE IN SUPPORT OF RESPONDENT in the above-captioned case were served, as required
by U.S. Supreme Court Rule 29.5(c), on the following:
AVISCHICK
TROUTMAN PEPPER HAMILTON SANDERS LLP
875 Third Avenue
New York, NY 10022
(212) 704-6126

Counsel for Applicants

ANDREA OSER

Deputy Solicitor General

OFFICE OF THE NEW YORK STATE
ATTORNEY GENERAL
28 LIBERTY STREET
NEW YORK, NY 10005
(212) 416-8016

Counsel for Respondent
The following email addresses have also been served electronically:
avi.schick@troutman.com
Andrea.Oser@ag.ny.gov
hquillen@whatleykallas.com
WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.
Washington, D.C. 20002
(202) 789-0096

COLIN CASEY HOGAN
NOTARY PuBLIC

District of Columbia

My commission expires April 14, 2022.

